<html>
<title> - THE ECONOMIC IMPACT OF THE 2010 VANCOUVER, CANADA, WINTER OLYMPICS ON OREGON AND THE PACIFIC NORTHWEST</title>
<body><pre>[Senate Hearing 109-472]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-472
 
                    THE ECONOMIC IMPACT OF THE 2010 
 VANCOUVER, CANADA, WINTER OLYMPICS ON OREGON AND THE PACIFIC NORTHWEST

=======================================================================

                             FIELD HEARING

                               before the

        SUBCOMMITTEE ON TRADE, TOURISM, AND ECONOMIC DEVELOPMENT

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 5, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
28-349                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

        SUBCOMMITTEE ON TRADE, TOURISM, AND ECONOMIC DEVELOPMENT

                   GORDON H. SMITH, Oregon, Chairman
TED STEVENS, Alaska                  BYRON L. DORGAN, North Dakota, 
JOHN McCAIN, Arizona                     Ranking
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
JOHN ENSIGN, Nevada                  JOHN D. ROCKEFELLER IV, West 
GEORGE ALLEN, Virginia                   Virginia
JOHN E. SUNUNU, New Hampshire        JOHN F. KERRY, Massachusetts
JIM DeMINT, South Carolina           MARIA CANTWELL, Washington
DAVID VITTER, Louisiana              FRANK R. LAUTENBERG, New Jersey
                                     BILL NELSON, Florida
                                     E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 5, 2005...................................     1
Statement of Senator Smith.......................................     1

                               Witnesses

Burnes, Jane, Director, British Columbia 2010 Olympic Winter 
  Games Secretariat..............................................     2
    Prepared statement...........................................     4
Davidson, Todd, Director, Oregon Tourism Commission..............     8
    Prepared statement...........................................    10
Mahalic, Drew, CEO, Oregon Sports Authority......................    18
    Prepared statement...........................................    20
Riley, Dave, Vice President/General Manager, Mt. Hood Meadows Ski 
  Resort.........................................................    13
    Prepared statement...........................................    16
Wilgus, Carl, State Tourism Director, Idaho Division of Tourism 
  Development....................................................    24
    Prepared statement...........................................    27


                    THE ECONOMIC IMPACT OF THE 2010 
 VANCOUVER, CANADA, WINTER OLYMPICS ON OREGON AND THE PACIFIC NORTHWEST

                              ----------                              


                         FRIDAY, AUGUST 5, 2005

                               U.S. Senate,
      Subcommittee on Trade, Tourism, and Economic 
                                       Development,
         Committee on Commerce, Science, and Transportation
                                                      Portland, OR.
    The Subcommittee met, pursuant to notice, at 10 a.m. at the 

Oregon Sports Hall of Fame, Hon. Gordon H. Smith, Chairman of 
Subcommittee, presiding.

             OPENING STATEMENT OF GORDON H. SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. I'll call to order the official hearing of 
the U.S. Senate Commerce Committee, and I chair the Senate 
Subcommittee on Trade, Tourism, and Economic Development.
    This is a field hearing. Obviously, it is official, but we 
will keep it somewhat informal because we are focusing today on 
an opportunity that Oregon has, because our neighbor, Canada, 
specifically British Columbia and Vancouver, will be hosting 
the 2010 Winter Olympics, and the Paralympic Winter Games. It 
will have an enormous impact on the larger region, which is 
obviously the states of Washington and Oregon.
    Today we'll hear testimony regarding the economic and 
tourism potential that benefits Oregon and what it's likely to 
derive from these Games.
    The testimony will also include suggested recommendations 
for promoting a cooperative relationship between Oregon and 
British Columbia in preparation for these Games.
    We will learn how past international sporting events, 
including the 2002 Salt Lake City Winter Olympics, allowed 
neighboring cities and states to capitalize on the tourism 
industry and how the State of Oregon can help mobilize on its 
efforts to attract visitors to Oregon before, during, and after 
the Games.
    Host cities of Olympic Games have experienced large 
increases in revenue as a direct result of the Games. The 
exposure of these cities has resulted in positive economic 
impacts, not only to the host cities, but also to the 
surrounding areas. It is expected that the 2010 Winter Games 
will result in increased revenues for all of our neighboring 
states, including Idaho, which I think was a significant 
beneficiary of the Salt Lake Winter Olympics.
    Oregon is in a unique position to increase its exposure to 
tourists and corporate investors notably during the Games.
    But in the few years to follow, I want to make sure we take 
full advantage of any potential tourism boosts to our state. 
Tourism is the third fastest growing industry in Oregon. This 
is due, in part, to the nonstop air service to Germany, Japan, 
Mexico, and Canada.
    In 2004 alone, tourism generated $6.9 billion to Oregon. So 
with Vancouver, British Columbia, just 300 miles away, Oregon 
and Portland are in a very positive place to reap the benefits 
of economic and tourist activity from these 2010 Games.
    I would like to especially welcome Consul General Jeffrey 
Parker, who is here today on behalf of the Government of Canada 
as our special guest.
    I thank you for your interest. In today's hearing I hope 
Canada will continue to work in close partnership with Oregon 
and its other Northwest neighbors as you prepare for the 2010 
Games.
    I would also like to thank all the witnesses for being here 
today. Your comments are very important to the U.S. Senate and 
to the state of Oregon, and your full statements will certainly 
be included in the record.
    Again, this will be somewhat of an informal hearing, but we 
will learn much from your experience and help focus Oregon on 
the opportunities that you and your 2010 Games will make 
available to us.
    So we will first hear from Ms. Jane Burnes, Director, 
British Columbia 2010 Olympic Winter Games Secretariat. She is 
from Victoria, British Columbia, and I thank you very much, 
Jane, for your presence here.
    We'll hand you the mike first and hear from you.

   STATEMENT OF JANE BURNES, DIRECTOR, BRITISH COLUMBIA 2010 
                OLYMPIC WINTER GAMES SECRETARIAT

    Ms. Burnes. Thank you very much, Senator, and good morning 
everyone. I really appreciate the opportunity of being here 
today and talking about both the Olympic and Paralympic venture 
that our entire region has embarked upon.
    For me it's been almost five years that I've been working 
on this project. It's been exciting and very much a learning 
experience for myself, for all of the members of our team, all 
of the government partners, and the many businesses and 
organizations that we've worked with in putting our successful 
bid together.
    From the outset, Vancouver's bid for the 2010 Winter Games 
was based on creating legacies: economic and tourism legacies, 
sports and health, social and sustainability legacies.
    The official support for our bid from all the states in the 
Pacific Northwest and the Pacific Northwest Economic Region, 
the PNWER organizations, were really important for us to 
demonstrate just how important their shared legacies would be.
    First of all, I want to just give you a quick update on the 
Vancouver 2010 Games and then an update on a couple of the 
business activities that the Province is undertaking and then a 
comment on the tourism impact for the Pacific Northwest.
    I don't think I'll ever forget that day in Prague, July 2, 
2003. I was seated right behind Wayne Gretzky as the 
announcement was made that we were to win the Games. And it was 
just an outpouring of celebration, of course, from the team 
over in Prague, and also in Vancouver.
    And that weekend we counted the border visitors across from 
the U.S. It was the highest number of border visitors that we 
ever had on a Dominion Day, Canada Day, and the July 4th 
weekend, so that in itself was a remarkable demonstration of 
just how important this is to tourism and for the common things 
that we share.
    Since July 2, 2003, we've put together a team. The 
Vancouver Organizing Committee now has about 120 people working 
on staff, and it's focused on the planning, venue construction, 
and the sponsorships. The venues we plan to have ready 2 years 
in advance of the Games so that we'll be able to test them all 
out and make sure that they're running on schedule.
    Our sponsorships are going well, and we've signed up five 
major national partners, to date.
    Many of the lessons that we learned in terms of being ahead 
of the curve we picked up from people who had run the Games in 
the past, and especially the wonderful opportunity we had to 
benefit from the people working on the Games in Salt Lake. That 
was just very, very fortunate for us, and we're most grateful 
for the information shared generously, not just during the 
Games, but after as well, as people took time out to share 
their experience and help make sure that ours was going to win 
and succeed in the end.
    So I would say that Vancouver 2010, although in the 
formative stages, is right on schedule.
    In the government, we're very focused on ensuring that the 
investment that we've made, both the provincial and federal 
investment, is going to result in legacies for all Canadians, 
all British Columbians, and, of course, the accelerated 
legacies that we hope to have for the entire region.
    In British Columbia, once again, the lessons that we've 
picked up from places like Salt Lake and Sydney show that the 
sooner you begin your business activities, the better off you 
are. And that's why we began during the bid phase in the 
anticipation of winning and being able to leverage those 
further.
    We've set up a website--and that's really our main center 
of activity now for business--which talks about direct 
opportunities that come from the Games and venue construction, 
and the actual operations and sponsorships, and from looking at 
venue opportunities. Talking about the experience that you've 
had working with the Olympics means that you're qualified, 
then, to carry on and work with other ones in the future.
    Major infrastructure projects, which as you know from your 
country's experience in Games that you've hosted, always go 
hand in hand with the Games that you've put on.
    We're going to be expanding our highway to Whistler--I hope 
lots of you have had the opportunity of driving on it and 
taking a ski or golf trip up to Whistler--and also the 
expansion of some of our rapid transit up to the airport to 
ensure that we are ready to welcome the rest of the world and 
the infrastructure is in place.
    It's major sporting events, too. Just as athletes and 
officials gathered around the Salt Lake Games, we're finding 
that they're coming to Vancouver to look at those venues and in 
advance get used to what it is that we have to offer.
    On our website we have information about all of this that 
we share with businesses so that they'll be able to take 
advantage of those.
    Now, just a quick comment on the tourism impact on the 
Pacific Northwest. Earlier today, before this hearing began, a 
reporter was in and said he wasn't able to stay for long and 
could I talk about what the biggest impact would be. It's 
tourism. It really is. I mean, we can talk about how important 
sustainability in the environment is, how critical it is for 
sports and our community, education, volunteers, all of those 
opportunities and legacies that we'll be building.
    But tourism for our region is really key, as the Senator 
referred to in his opening remarks. We expect that there will 
be incremental spending in addition over the 4-year period of 
$1.5 billion. We're expecting that the Pacific Northwest and 
the other parts of the U.S. are going to be sending well over 
50 percent of the visitors to our Games themselves. Yes, we'll 
be welcoming overseas visitors, but our neighbors will be 
coming. And we expect that to be a two-way process.
    We've always talked about the Circle Tours and the Hands 
Across the Border. It's transparent, as we know, in our region. 
And through the Pacific Northwest Economic Region we hope to be 
capitalizing on this and working together to help us all 
benefit.
    The Games are huge. I've been so fortunate to be involved 
in this adventure, to meet the wonderful people in other 
countries that have put them on.
    And we're really creating for our entire region a glass 
that's half full. It's up to all of us, through our respective 
organizations, jurisdictions, and our commitments, to work 
together to fill that glass up to the top, to create legacies, 
opportunities, and an international profile that will last for 
years and years to come.
    I think the most inspiring remarks I've ever heard--and 
I've listened to a lot of politicians, Senator--came from 
Governor Leavitt after Utah hosted the Games. He was kind 
enough to come up to Vancouver and address a business crowd of 
over a thousand people. There wasn't a dry eye in the house at 
the end of it, as he told us about his Olympic adventure and 
what it meant to the future of his state and the city of Salt 
Lake.
    That's what we want to create with these Games, and we want 
to do it with the entire region, so thank you so much for 
including us today.
    [The prepared statement of Ms. Burnes follows:]

  Prepared Statement of Jane Burnes, Director, British Columbia 2010 
                    Olympic Winter Games Secretariat

Update on Vancouver 2010 Games
    From the outset, Vancouver's bid for the 2010 Winter Games was 
based on creating legacies--economic and tourism, sports and health, 
social and sustainability. The official support for our bid from the 
Pacific Northwest states, and the Pacific Northwest Economic Region 
(PNWER), was very much appreciated and helped us realize the legacies 
we achieve will be shared beyond our borders.
    Since July 2, 2003, when the IOC awarded Vancouver the right to 
host the 2010 Games, the Vancouver Organizing Committee (VANOC) has 
been, a 20-member board was appointed, and Jack Poole has been 
appointed chair of the board.
    Led by president and chief operating officer John Furlong, the 
VANOC team now numbers 120 people and is organized into eight key 
areas:

        --Services and Planning
        --Sport
        --Finance
        --Venue Development
        --Revenue, Marketing and Communications
        --Legal
        --Human Resources
        --Technology and Systems

  <bullet> The main focus now is Games' planning, venue construction 
        and sponsorships.

  <bullet> VANOC's goal is to deliver the venues two years ahead of the 
        Games in order to allow for testing the venues in advance of 
        the Games and providing athletes with training opportunities. 
        This goal is supported by diligent planning, comprehensive 
        environmental approvals, and an early start to construction.

  <bullet> Overall, domestic sponsorships, merchandise and supplier 
        programs are to generate about 40 percent of the Games 
        Operating Budget. The rest of the budget comes from the sale of 
        television broadcast rights, international sponsorships and 
        ticket sales.

  <bullet> VANOC's marketing efforts have resulted in five major 
        National Partners to date: Bell Canada, RBC Financial Group, 
        Hbc, RONA and Petro-Canada.

Update on Province of British Columbia 2010-Related Business Activities
    British Columbia's investment in the 2010 Games has led to a 
concerted effort to build upon lessons learned from past experiences, 
such as the Salt Lake Games in 2002, in an attempt to leverage this 
unique opportunity for our region. It has been widely acknowledged that 
starting early increases the chance of achieving a significant economic 
impact.
    The Province's main vehicle to help business participate in the 
2010 Winter Olympic and Paralympic Games is the 2010 Commerce Centre, 
which can be found at www.2010CommerceCentre.gov.bc.ca.
    While economic impact studies have shown the Games will bring an 
estimated $4 billion of business activity, related activities will add 
much more to the equation. The 2010 Commerce Centre will aggregate and 
display all 2010-related business opportunities including:

  <bullet> Direct Opportunities such as venue construction ($470 
        million+), VANOC Operations ($1.3 billion), BC Secretariat and 
        2010 Legacies Now;

  <bullet> Olympic Family Opportunities such as procurement from 
        sponsors like Bell Canada $200 million, Royal Bank $110 
        million;

  <bullet> Major Infrastructure Projects such as the Vancouver 
        Convention Centre Expansion Project ($565 million), new Rapid 
        Transit Line ($1.7 billion), YVR expansion ($1.4 billion); and

  <bullet> Major Sporting Events and Sports Venue Construction: World 
        Junior Hockey 2006, North American Indigenous Games 2008, World 
        Police and Fire Games 2009, Northern Sports Centre Prince 
        George, Paralympic Training Centre Kimberley, Speed Skating 
        Oval Fort St. John.

    Registration at the 2010 Commerce Centre site is free and it allows 
one can:

  <bullet> Browse and search current business opportunities
  <bullet> Procedures for bidding on Olympic projects
  <bullet> Complimentary registration for e-mail notification of 
        procurement opportunities that fit your profile
  <bullet> Listings of 2010-related bid winners
  <bullet> Steps to becoming a sub-contractor to winning suppliers
  <bullet> Strategies for potential product licensees
  <bullet> Online procurement workshop material and calendar of events
  <bullet> Success stories and best practice advice
  <bullet> Business planning, Olympic logo use and guidelines
  <bullet> 2010 business news
  <bullet> Sign-up for 2010 Commerce Centre electronic newsletter

    Future Provincial plans include a 2010 Business Network, 
anticipated to be operational later this year. It will include:

  <bullet> A database of companies that want to do Olympic business.

  <bullet> An opportunity for companies to build new business 
        relationships--to find potential partners, suppliers and new 
        clients.

  <bullet> Ability for companies, including international firms, to 
        post a detailed business profile and search listings to find 
        the business relationships they need to do business around the 
        Games.

Comment on Tourism Impact for Pacific Northwest
    The economic impact studies conducted in 2002 and 2003 estimated:

  <bullet> Approximately 1.1 million additional international (U.S. and 
        Overseas) visitors to British Columbia during 2008-2012.

  <bullet> Approximately $1.5 billion incremental spending by 
        additional international (U.S. and Overseas) visitors to 
        British Columbia during 2008-2012.

  <bullet> Approximately $3.3 billion incremental GDP to 2015, 
        including construction investment.

  <bullet> Approximately 25 percent of incremental visitors will be 
        from overseas, 35 percent from the Pacific Northwest and 40 
        percent from other parts of the U.S. (Source: Tourism BC)

  <bullet> Currently about 40 percent of visitors from other parts of 
        the U.S. to British Columbia travel through the Pacific 
        Northwest, about 30 percent of British Columbia's overseas 
        visitors also visit the Pacific Northwest. Thus, the Pacific 
        Northwest can anticipate a significant number of additional 
        visitors due to the 2010 Games. (Source: Tourism BC)

  <bullet> The Pacific Northwest will be able to increase this through 
        tourism marketing and an effective media relations strategy.

  <bullet> Other potential benefits to the Pacific Northwest will 
        include investment and supplier (export) opportunities.

  <bullet> Benefits will extend beyond 2012 as British Columbia 
        capitalizes on increased awareness of British Columbia as a 
        destination and increased capacity due to 2010 infrastructure 
        investments and new tourism businesses.

    Thank you for the opportunity of speaking to your Subcommittee.

    Senator Smith. Well, Jane--if I may call you Jane?
    Ms. Burnes. Please do.
    Senator Smith. I attended one event at the Salt Lake Games, 
and it was something never to be forgotten. It was a 
spectacular success. And we wish that, also, for Vancouver, 
British Columbia.
    And I know your facility there, and they are superior by 
every measure. I think you have all the makings of hosting a 
great international event.
    Obviously, we're looking for ways where we can--without 
complicating your Games, best work with you to complement those 
Games, and I assume you would welcome advertising from the 
States of Oregon, Washington, and Idaho out there, as well as 
their Winter Wonderland attractions.
    Have you thought about advertising for tourism on this side 
of the border at your Games?
    Ms. Burnes. Well, we thought about it in terms of the rest 
of the country. I mean, this is--you know, you tend to--I'm a 
Vancouver native, so you sort of tend to be egocentric about 
getting the Games, and then you take a breath and realize, you 
know, everyone's investing in this, every Canadian, every 
British Columbian.
    And the opportunities that we see for involving the rest of 
our huge Province are the same way that we see in involving the 
States of Oregon, Washington, Alaska, and Idaho. It's talking 
about the whole region.
    Yes, you're coming to Vancouver; why don't you come through 
Seattle. You're coming to the Vancouver Games. It's busy; why 
don't you go skiing in some other resort, be it in British 
Columbia or somewhere in the States.
    I think that working together as we are through PNWER and 
working together at a working level in the economic development 
organizations is really going to be the key for both of us, 
because, as I said, so many of the visitors are coming from 
south of the border, and they're bringing that experience and 
expectation with them.
    Senator Smith. You know, given the day and age we live in 
of international terrorism, I'm sure the thought is being given 
to that. I mean, going from Oregon or Washington to Canada, 
we're going into another nation, and obviously there are visa 
issues. It's not like going from Idaho to Utah. You've got to 
clear customs, and I suppose there will be, as with all of 
these international events, heightened security.
    Have you thought about how you're going to reconcile the 
convenience with security and making sure your country is safe, 
and ours as well? Is there a way to have efficiency and 
security at the same time?
    Ms. Burnes. Well, in order to win the bid, we had to 
demonstrate to the IOC that we had a good security plan in 
place, and our security in Vancouver are working very closely 
with British Columbia and Federal, and it's all led by the 
RCMP. And it is working through our customs and visa, and all 
of that stuff is being done through the Federal Government.
    But I have every confidence that there are any number of 
committees meeting and also taking advantage of the Athens and 
Salt Lake experience.
    We're in a different country, but we're welcoming the 
world, so we are welcoming all of the challenges that come with 
that, and I'm pretty confident that it's being looked after by 
the RCMP.
    Senator Smith. Well, in asking the question, I know every 
precaution will be taken to provide security, to protect your 
sovereignty, and also to protect your people and ours who come 
to visit.
    And I have--I recall at the Salt Lake Olympics, which were 
held right after 9/11, the security was incredible, but the 
efficiency wasn't compromised. And people were able to move 
quickly and without any inconvenience, that I could detect.
    And I'm sure that's a model that you'll benefit from, as 
will visitors from Oregon benefit from, as you implement 
something I'm sure quite similar.
    Ms. Burnes. There were Canadians that worked as volunteers 
in security in Salt Lake and absolutely learned some good 
lessons.
    Senator Smith. Well, very good. Thank you so much.
    We'll next go to Todd Davidson, who is the Executive 
Director of the Oregon Tourism Commission. And I know that Todd 
is already working on this issue, and I've shared with Todd my 
experience on a couple of radio programs in Oregon yesterday 
about this hearing today, and they were incredulous as to how 
this could have anything to do with Oregon.
    And I think that we're going to find out that it does, and 
the sooner we recognize that it does, the better prepared we 
will be to complement, supplement, and help to facilitate a 
successful game in Vancouver, to the profit of our own state as 
well.
    So, Todd, the mike is yours.

STATEMENT OF TODD DAVIDSON, DIRECTOR, OREGON TOURISM COMMISSION

    Mr. Davidson. Thank you, Senator, and good morning.
    For the record, my name is Todd Davidson, and I have the 
privilege and pleasure of serving as the Director of the Oregon 
Tourism Commission, and I'm before you today at both your 
invitation, as well as on behalf of Oregon Governor Ted 
Kulongoski.
    As you mentioned in your opening remarks, Senator, this is 
truly an amazing time to be in Oregon and to be part of the 
tourism and hospitality industry.
    In addition to some of the facts that you mentioned and as 
evidence of the increasing importance of tourism and 
hospitality in Oregon, Oregon Business magazine ran a series of 
surveys back in December 2004, and the questions that they 
asked of Oregon business leaders, Oregon residents, and the 
Oregon Employment Department was who would be the major 
employer in Oregon within 10 years. Fifty-one percent of 
Oregon's business leaders picked tourism and hospitality as the 
major employer in the state within 10 years. That was the 
number two ranking, second only to health care.
    When they asked Oregonians, 75 percent of Oregonians said 
tourism and hospitality would be a major employer in the state 
within 10 years. That was number one over all other industry 
sectors.
    And the Oregon Employment Department also said that the 
tourism and hospitality industry would be a major employer in 
the state.
    So it's significant that we're here today talking about the 
2010 Olympics, because as you very aptly pointed out, and as 
Ms. Burnes mentioned, their success can also mean our success, 
that the more successful they are in Vancouver with the hosting 
of this Olympics, the more opportunities there are for us here 
in the Pacific Northwest and the State of Oregon to really 
draft off of that success.
    Today we've got over 88,000 Oregonians who owe their jobs 
to visitors who are traveling the state, spending dollars, 
euros, the yen, and other currencies in our state. So we really 
see our objective as sustaining this momentum.
    So the question before the Committee today is, is there an 
opportunity here with the 2010 Olympics, and my answer is yes.
    So what we have done at this point at the Oregon Tourism 
Commission is tendered into preliminary conversations with both 
the Washington and Idaho tourism offices to look at some 
potential joint promotional opportunity that we could undertake 
in conjunction with the 2010 Olympics.
    We do believe that there's potential, and we think that 
there are some opportunities--again, on a preliminary basis, I 
just would like to articulate for you and for the record here 
this morning, one, we think there's an opportunity to position 
the Pacific Northwest here in the United States as a training 
site for the Olympic athletes so that they have an opportunity 
to acclimate to the Pacific Northwest.
    And oftentimes with the celebrity status that comes with 
those athletes, you can also then begin to get other consumer 
interests because this is where our team trained. So we think 
there's an opportunity there to leverage the Pacific Northwest 
as a training site for Olympic athletes.
    We think there's an opportunity to reach out to the 
thousands of noncredentialed media. Obviously, there will be 
thousands of credentialed media there to cover the sporting 
events themselves, but there will be literally hundreds, if not 
thousands, of, quote, noncredential media that will be in 
Vancouver to write about the lifestyle of the Pacific 
Northwest.
    So we think there's an opportunity there as well to help 
generate not only the impact during 2010 but beyond as these 
kinds of stories are written.
    We think there's an opportunity to explore opportunities to 
build travel packages with international tour operators, to 
utilize the international air service that you mentioned in 
your opening comments, PDX's air service out of town here, 
German Airlines out of Frankfurt, Northwest Airlines out of 
Tokyo, and Mexicana Airlines out of Guadalajara and Mexico City 
to bring contestants and attendees alike to the Northwest and 
encourage them to spend some of their discretionary time here, 
either before or after the competitions.
    And then we think there's an opportunity to actually look 
at the Games themselves and see what the three states here in 
the Pacific Northwest might want to do together to influence 
consumers that are there at the Games to also visit the Pacific 
Northwest, whether this is distribution of collateral material, 
presence of a kiosk, and the kinds of advertising opportunities 
that I'm confident are being developed in Vancouver that we 
need to explore at the Games closer.
    As I mentioned, all of these discussions are in a 
preliminary phase, and we'll be exploring these and other 
opportunities that will help us capitalize on the Olympics' 
proximity to Oregon and the Pacific Northwest.
    There are a couple of challenges that are on the horizon 
that make it somewhat difficult to adequately forecast the 
impact the Olympics could have on Oregon, many of which you 
mentioned in your questions to Ms. Burnes about security 
concerns and facilitating that international travel.
    So just for the sake of expediency, the two I would like to 
mention this morning, just again for your information as we 
move forward, one is the visa processing requirements. In 
August 2003, we implemented a requirement that all of these 
applicants need to appear in person at a U.S. Embassy or a 
Consulate in order to have an in-person interview to receive a 
visa.
    Obviously, this is for countries that are not part of our 
very aggressive Visa Waiver Program in which 27 countries are 
currently involved in. But for non-Visa Waiver countries, they 
need to do an in-person interview before they can receive their 
visa.
    What this sometimes means in large countries where we may 
have a limited State Department presence is that they almost 
have to take a vacation in-country before they can take a 
vacation out of the country, because everybody in the family 
who is going to be taking the trip needs to go in for that 
interview in order to receive their visa in advance.
    So concerns about that--the need to take that additional 
trip and being adequately staffed, of course, to handle the 
influx that could come as a result of the proximity of the 
Olympics is something that I hope we're able to keep in mind as 
we move forward.
    The second challenge I wanted to bring to your attention is 
one requiring biometric passports. These are the electronic 
scans of the eyes, face, or fingers that were being discussed.
    And I need to say, obviously, for the record, biometric 
passports are an important element in securing our borders. 
Definitive identification of international visitors through 
biometrics will allow U.S. Inspectors to admit legitimate 
travelers with greater confidence. This will increase security, 
as well as lessen the wait time, both of which are critically 
important to us in the tourism and hospitality industry.
    There was a deadline, as you may be well aware of, October 
26, 2005, for our Visa Waiver Program participating countries 
to have biometric passports in place. However, only a handful 
of those countries might have been able to meet that deadline, 
so Congress has agreed to extend that deadline, and we applaud 
that decision.
    They also allowed an additional biometric identifier that 
would be using a digital photograph. Both of these decisions 
are helping create greater certainty in our international 
marketplace and amongst the international travel trade, and so, 
Senator, I applaud your work and Congress' work on extending 
the biometric passport deadline as we move forward, because it 
does mean a great deal to the 13 million Visa Waiver Program 
visitors who travel to the United States every year.
    In closing, Senator, I guess I would like to say that 
America is still an incredibly special place, and it is the 
special place it has always been. We remain a premier 
destination with more things to see and do than probably any 
other single country.
    And I would like to believe that when visitors have visited 
here and they travel home that they've been enriched and 
enraptured by our culture and who we are, and the 2010 Olympics 
will afford us another such opportunity.
    I remain eager to explore the opportunities that the 2010 
Olympics will afford us and our partners here in the Pacific 
Northwest.
    And I'm grateful for your leadership, Senator Smith, in 
bringing us here together today. Thank you very much.
    [The prepared statement of Mr. Davidson follows:]

     Prepared Statement of Todd Davidson, Director, Oregon Tourism 
                               Commission

    Good morning, Senator Smith and Members of the Committee. For the 
record, my name is Todd Davidson and I have the privilege and pleasure 
of serving as the Director of the Oregon Tourism Commission. I am 
before you today at both the invitation of the Committee and on behalf 
of Oregon Governor Ted Kulongoski.
    The statutory mission of the Oregon Tourism Commission is to 
encourage the economic growth and to enhance the quality of life in 
Oregon through a strengthened economic impact of tourism throughout the 
state.
    To accomplish this mission, the Tourism Commission and staff 
identify and promote an image of Oregon that is unique, exciting, 
natural and friendly. Throughout its activities, the Oregon Tourism 
Commission follows these marketing goals and performance measures as 
set forth by the Oregon Legislature:

        1. Maximize the return on investment in tourism.

        2. Encourage longer stays by visitors to Oregon and reduce 
        seasonal fluctuations in travel related industries.

        3. To encourage visitors, including Oregonians, to be 
        destination-oriented in this state.

        4. To encourage international visitors to come to Oregon.

    And, with these objectives firmly in hand, there has never been a 
more amazing time to be in Oregon and to be part of the tourism and 
hospitality industry.
    Visitor expenditures directly generate over 88,000 jobs for 
Oregonians.
    But the broader, collective tourism and hospitality industry 
supports over 150,000 jobs! And when we take into account the secondary 
jobs this industry supports, we surpass 200,000 jobs!
    This means that one out of every nine Oregonians is employed, 
either directly or indirectly, by the tourism and hospitality industry.
    As evidence of the increasing importance of the tourism and 
hospitality industry in Oregon, Oregon Business magazine ran a series 
of surveys in their December 2004 issue. The question they asked was 
one of major employers in Oregon in the future.

        Subscribers to the magazine, business leaders in Oregon ranked 
        tourism/recreation #2 with 51 percent respondents agreeing 
        tourism/hospitality would be a major employer in Oregon within 
        10 years.

        Then, Oregon Business did a random sampling of Oregonians. 
        Seventy-five percent of respondents ranked tourism and 
        recreation (#1) as the major employer within ten years.

        And then the magazine asked the Oregon Employment Department 
        who the largest employers would be in 2012 and they named 
        eating and drinking establishments and accommodations #2.

    Through every program, great idea and minor tweak the Oregon 
Tourism Commission implements--we strive to never take our eyes off the 
prize--and, as you can see, it's about jobs. Good jobs for Oregonians.

        Jobs where they can learn work maturity skills and jobs where 
        they can establish their careers.

        Jobs where they can become part of a major multi-national 
        corporation and jobs where they are the proprietor--showing up 
        every morning to unlock the door.

    Today, over 88,000 Oregonians owe their jobs to visitors traveling 
and spending dollars, euros, yen and other currencies in our state.
    And we have watched these expenditures grow--not only during the 
last decade--but especially during this last year when we experienced 6 
percent growth--our fastest rate of growth in the past 5 years. And I 
am thrilled to stand before you today and celebrate the fact that 
visitor spending reached nearly $7 billion last year!
    So, our objective must be to sustain this momentum.
    To accomplish this, the Oregon Tourism Commission has three primary 
audiences that we serve:

        1. Potential and actual visitors who are served through our 
        advertising programs, publications, welcome centers and 
        website.

        2. Travel agents, tour operators and travel media who are 
        served with publications, trade shows, sales calls, hosted 
        itineraries, slide library and website.

        3. Industry partners--private businesses, local chambers of 
        commerce, visitor bureaus and governmental organizations that 
        benefit from research, education and training, workforce 
        development and cooperative partnerships.

    To reach these audiences, the Oregon Tourism Commission implements 
several key programs designed to better position Oregon in the mind of 
the traveling public.
    The results of these programs and partnerships are impressive.

  <bullet> The Commission's recent advertising campaigns generated 
        220,000 new trips--185,300 new overnight and 35,000 new day 
        trips between March 2000 and February 2002. It is important to 
        note that 84 percent of the trips generated by the Commission's 
        advertising campaigns included at least one overnight and only 
        16 percent were day trips.

  <bullet> These visitors spent more than $40 million in Oregon.

  <bullet> The cost of generating one trip to Oregon is only $1.69, and 
        every marketing dollar invested by the Tourism Commission 
        results in $114 in new visitor spending.

  <bullet> Every dollar the Commission spends on advertising generates 
        $3.40 in state tax revenue and $1.60 in local tax revenue (a 
        return of 5:1).

    The Tourism Commission has strived to run effective programs 
maximizing the return on investment to Oregon. This research indicates 
that we have been successful.
    So, the question before the Committee today is, ``Is there an 
opportunity to garner economic return from the 2010 Olympics being held 
in Vancouver, British Columbia? And my answer would be ``yes.''
    The Oregon Tourism Commission has entered into preliminary 
conversations with both the Washington and Idaho tourism offices to 
discuss potential joint marketing programs in conjunction with the 2010 
Olympics.
    We feel there is potential opportunity in several key areas, most 
notably,

        1. Positioning the Pacific Northwest as a training site for the 
        Olympic athletes seeking to acclimate to the Pacific Northwest.

        2. Reaching out to the thousands of non-credentialed media that 
        attend the Olympics to generate lifestyle stories.

        3. Exploring opportunities to build travel packages with 
        international tour operators to utilize our international air 
        service--including PDX's air service on Lufthansa German 
        Airlines from Frankfurt, Germany; Northwest Air Lines from 
        Tokyo, Japan; and Mexicana Airlines from Guadalajara and Mexico 
        City, Mexico--to bring contestants and attendees alike through 
        the Northwest and encouraging them to spend some discretionary 
        time here either before or after the competitions.

        4. Having some type of presence at the Olympic venues to reach 
        the international consumers and build awareness of travel 
        opportunities in the Pacific Northwest.

    As I mentioned, these discussions are in a preliminary phase and we 
will be exploring these and other opportunities to capitalize on the 
Olympics proximity to Oregon and the Pacific Northwest.
    There are some challenges on the horizon though, that make it 
difficult to adequately forecast the impact the Olympics could have on 
Oregon, the Pacific Northwest and the United States.
    The first of these challenges is found in our visa processing 
requirements. The August 2003 requirement that nearly all visa 
applicants appear in person at a U.S. embassy or consulate has 
increased the workload at many visa-issuing posts. While additional 
staff have been deployed since then, in some locations major delays 
continue to occur due to shortages of personnel or office space. I am 
concerned that delays in visa issuance are acting to deter prospective 
international visitors.
    The second challenge is found in our requirement for biometric 
passports (electronic scans of the eye, face, or finger). Biometric 
passports are an important element in securing our borders. Definitive 
identification of international visitors through biometrics will allow 
U.S. inspections to admit legitimate travelers with greater confidence. 
This will increase security as well as lessen wait times at inspection.
    However, there was a looming deadline of October 26, 2005, for the 
VWP participating countries to begin issuing these new, high-tech 
passports containing biometric identifiers. It was believed that, at 
best, only a handful of the 27 Visa Waiver countries would be able to 
meet the October 26, 2005 deadline. It was also questionable if the 
U.S. State Department would be ready to start issuing biometrically 
enabled U.S. passports by that time. This deadline has now been 
extended by one additional year and an additional biometric 
identifier--a digital photograph--has been added to the choices.
    The bottom-line is that uncertainty about these deadlines in the 
marketplace only discourages travel to the U.S. and could have a 
crippling effect on future travel bookings for this coming fall and 
beyond. Congress' recent action to statutorily extend this deadline was 
critically important to our tourism trading partners and the more than 
13 million Visa Waiver Program visitors that can continue to travel 
uninterrupted to the United States.

        (The 27 Visa Waiver Program countries include: Andorra, 
        Australia, Austria, Belgium, Brunei, Denmark, Finland, France, 
        Germany, Iceland, Ireland, Italy, Japan, Liechtenstein, 
        Luxembourg, Monaco, Netherlands, New Zealand, Norway, Portugal, 
        San Marino, Singapore, Slovenia, Spain, Sweden, Switzerland, 
        and the United Kingdom.)

    America is still the special place it has always been and each of 
these challenges can be overcome. We remain a premier destination with 
more things to do and see than any other single country.
    I like to think that when visitors leave, they have been enriched 
and enraptured by our culture and who we are. And the 2010 Olympics 
will afford us another such opportunity. I remain eager to continue to 
explore the opportunities that the 2010 Olympics afford us with our 
partners in the Pacific Northwest and am grateful for your leadership, 
Senator Smith, in convening this hearing this morning.
    Thank you.

    Senator Smith. Thank you, Todd.
    Jane, do you have a comment to his in terms of the 
biometric passports? Does that fit in with your thinking?
    Ms. Burnes. I'd have to--I don't represent the Federal 
Government, and that's their responsibility. So I wouldn't be 
able to make a comment.
    Senator Smith. OK. Very good. Well, thank you.
    Dave Riley is the Vice President and General Manager of the 
Mt. Hood Meadows Ski Resort. It's a very nice place.
    Obviously, Dave, you represent a place that with the right 
kind of advertising would no doubt attract a lot of people who 
not only want to watch skiing at an Olympic level but perhaps 
afterwards try and reenact it on your slopes.
    So with that, the mike is yours.

 STATEMENT OF DAVE RILEY, VICE PRESIDENT/GENERAL MANAGER, MT. 
                    HOOD MEADOWS SKI RESORT

    Mr. Riley. Thank you, Senator. A little background. I've 
spent my entire career, 20 years, in this business and have 
worked at other large destination resorts in Wyoming and 
Colorado and New Mexico before coming here for the past 12 
years, so I have a little experience in the role of facilities 
and attracting national tourism.
    The 2010 Winter Olympic Games will attract approximately 
6,000 athletes and officials, 10,000 members of the media, and 
14,000 volunteers.
    Salt Lake City reported the 2002 Olympics attracted 220,000 
total visitors during the 17 days of the event. Ninety thousand 
visitors were domestic, and a good portion of those visitors 
came from the Western United States.
    But the legacy that Vancouver and Whistler will have 
created through their hosting of the 2010 Olympics will have an 
impact long into the future.
    The key ``win'' for Salt Lake City's hotel industry was the 
massive international exposure. Whistler will benefit from this 
exposure for decades to come.
    The Sea to Ski Highway that was mentioned earlier is a $600 
million construction project, and it will reduce the drive time 
from Vancouver to Whistler by 30 minutes.
    The construction of world class winter sports training 
facilities and competition venues in Vancouver and at Whistler 
will attract enthusiasts and spectators for training and 
competition long into the future.
    However, studies indicate that the economic impact with the 
biggest payoffs will require an exemplary tourism marketing 
program both before and after the Games for the whole of 
British Columbia, in addition to Games marketing planned for by 
the Bid Corporation.
    So what can Oregon do to take advantage of this Olympic 
opportunity? There are several things. First, capitalize on the 
skiers and snowboarders around the world who are avoiding 
Whistler during the Olympics, looking for other places to 
recreate.
    It's interesting that in Salt Lake City the skier visits 
were actually down that year by 9 percent. The reason they did 
it was the next year they were up even higher, and they had set 
records in Idaho----
    Senator Smith. They were down in Utah?
    Mr. Riley. Yes, in Utah.
    Senator Smith. But they were up in Idaho?
    Mr. Riley. That's right, because the biggest ski clubs are 
in places like Texas and Florida and the Midwest and the 
Eastern Seaboard. Where are those people going to go? They're 
going to go to Whistler the following year in great numbers.
    Senator Smith. And that happened in Utah as well?
    Mr. Riley. Exactly.
    Senator Smith. Dramatically, I believe.
    Mr. Riley. Yes.
    So, obviously, Travel Oregon should place TV and Internet 
ads during the Olympic coverage to reach those tuned in.
    Senator Smith. And what would you advertise on, like ESPN, 
that sort of thing?
    Mr. Riley. Yes, there's a number of their websites. There's 
television coverage that's going to be happening here 
domestically. Like when you were watching the Salt Lake City 
Games, those are expensive ads, but there are opportunities to 
expose Oregon to great numbers of people who fit the profile.
    The Nagano Games website set a world record and Olympic 
record, receiving 646 million hits during the 15 days of the 
Games, peaking at 103,000 hits per minute on their website.
    Travel Oregon should work closely with the ski areas to 
leverage international media that will travel here to profile 
and feature their athletes.
    Basically there will be a great number of stories done on 
these athletes on Mt. Hood who are visiting here to train 
leading up to the Games.
    Capitalize on the drive traffic through the I-5 and I-84 
corridors of the spectators traveling to and from the Games.
    And then establish, as you've mentioned earlier, Oregon-
grown and manufactured products in Vancouver and Whistler.
    And you can actually use the Welcome Centers here in Oregon 
to sell Olympic items. A lot of people did quite well selling 
items in Salt Lake City. I don't think you left without a 
shirt.
    Senator Smith. I've got a shirt. I've got lots of little 
pins.
    Mr. Riley. Right. And if we do all of that, we may see some 
increase in tourism, particularly during the 17 days of the 
Olympics.
    It is interesting to note that the weather patterns and 
snowfall on Mt. Hood are no different from Whistler. We share 
the same Pacific zone conditions. We actually have a higher 
base elevation, too.
    If Oregon really wants to increase the economic impact from 
winter tourism, amenities and event venues that meet the 
expectation of the international visitor have to be constructed 
on Mt. Hood.
    Portland, Hood River, and Government Camp already have much 
of the infrastructure needed to host the Olympics or other 
large winter competitive events, like world class or world cup 
ski events.
    Mt. Hood can provide the venues for the alpine and nordic 
events, but consider what is still needed: A village or 
villages constructed on Mt. Hood to be able to host a 
delegation of 6,000 athletes and officials. That may sound like 
a large number, but right now our resort hosts over 10,000 
people a day on average on a given weekend. Mt. Hood is the 
largest ski mountain in Oregon, actually hosting twice the 
number of skiers as Mt. Bachelor. But because we're three 
areas, it divides up, and people look at us as if we're 
smaller.
    We have over 20 chairlifts on Mt. Hood. We host over 
850,000 visitors each year on Mt. Hood, so it's twice the 
number of Mt. Bachelor.
    Winter sport competition venues constructed at Mt. Hood and 
in Portland, which will serve as venues during the large 
events, but also be used to train athletes on Mt. Hood year-
round into the future. Mt. Hood is the only ski area in North 
America that skis into August. It's a tremendous opportunity 
that's not being capitalized.
    Transportation improvements between Portland and Mt. Hood 
and between Government Camp and the major ski areas need to be 
improved.
    The reality is that Oregon has not been able to capitalize 
on winter tourism at the level of California, Idaho, Utah, 
Colorado, or British Columbia because of Forest Service 
reluctance to approve the necessary amenities and facilities on 
Federal lands at the base of the existing winter sports areas.
    Even if Oregon does not pursue an Olympic bid in the 
future, we can best take advantage of the displaced visitors 
who would have otherwise gone to Whistler, and into the future, 
after the Olympic games, by developing the amenities on Mt. 
Hood between now and 2010 that are necessary to influence their 
vacation destination choices.
    We can use the exposure of the Olympics to--that the 
exposure will bring to the Northwest to expose the 
international tourists to these new facilities, but only if 
they're constructed by 2010.
    I leave you with this: Until Forest Service policy and 
strategies change to allow for the construction and development 
of world class facilities and venues needed to present major 
winner events and meet the expectations of the winter tourists, 
we will never capitalize on winter international tourism. Even 
though we have spectacular mountains and ski slopes, we don't 
have the amenities and facilities that other winter 
destinations enjoy.
    Oregon has a unique combination of a vibrant city in close 
proximity to a world class winter recreation area, but it is 
incomplete from an international visitor's point of view due to 
the lack of pedestrian villages at the base of the ski areas. 
One only needs to visit Whistler or Deer Valley to see what 
Oregon is missing.
    Thank you, and I would like to answer any questions that 
you may have.
    [The prepared statement of Mr. Riley follows:]

 Prepared Statement of Dave Riley, Vice President/General Manager, Mt. 
                        Hood Meadows Ski Resort

    The 2010 Winter Olympic Games will attract approximately 6,000 
athletes and officials, 10,000 members of the media, and 14,000 
volunteers.
    Salt Lake City reported the 2002 Olympics attracted 220,000 total 
visitors during the 17 days of the event. Ninety thousand of those 
visitors were domestic--a good portion of that from the Western United 
States.
    But the legacy that Vancouver and Whistler will have created 
through their hosting of the 2010 Olympics will have an impact long 
into the future.

        1. The key ``win'' for Salt Lake City's hotel industry was the 
        massive international exposure. Whistler will benefit from this 
        exposure for decades to come.

        2. Vancouver to Whistler--Sea to Sky Highway Improvements, the 
        $600 million construction project will reduce the drive time 
        from Vancouver to Whistler by 30 minutes.

        3. The construction of world class winter sports training 
        facilities and competition venues in Vancouver and at Whistler 
        will attract enthusiasts and spectators for training and 
        competition long into the future.

    However, studies indicate that the economic impact with the biggest 
payoffs will require an exemplary tourism marketing program both before 
and after the Games for the whole of British Columbia (in addition to 
the Games marketing planned for by the Bid Corporation).
    So what can Oregon do to take advantage of this Olympic 
opportunity?

        1. Capitalize on skiers and snowboarders around the world 
        avoiding Whistler during the Olympics, looking for other places 
        to recreate.

        2. Travel Oregon should place TV and Internet ads during 
        Olympic coverage to reach those ``tuned in''.

           a. Television ads promoting Utah tourism aired in select 
        West Coast markets reaching 6.1 million people during closing 
        week of the Games. This advertising resulted in nearly 50,000 
        visits to the Utah.com and skiutah.com website promotion pages 
        and roughly 3,000 calls to the Ski Utah call center.

           b. The official Nagano Games website set a World and Olympic 
        record, receiving 646 million hits during the 15 days of the 
        Games, peaking at 103,429 hits per minute.

        3. Travel Oregon should work closely with the ski areas to 
        leverage international media that travel here to profile and 
        feature their athletes.

           a. Profile packages should be produced and written weeks if 
        not months in advance.

        4. Capitalize on the drive traffic through the I-5 and I-84 
        corridors of spectators traveling to and from the Games.

           a. There could be 15,000 or more spectators from the 
        intermountain west and California traveling through Oregon on 
        their way to and back from the games. Border crossing will have 
        to be expedited for automobiles as well as air travel 
        passengers.

        5. Establish Oregon grown and manufactured products in 
        Vancouver and Whistler restaurants and retail shops.

        6. Oregon Welcome Centers should sell official Olympic 
        merchandise (and Oregon businesses can offer discounts and 
        incentives to those that show their Olympic merchandise to 
        generate incremental repeat business).

    And if we do all that, we may see some increase in tourism 
particularly during the 17 days of the Olympics.
    It is interesting to note that the weather patterns and snow 
quality on Mt. Hood are no different from Whistler, British Columbia. 
We share the same pacific zone conditions.
    If Oregon really wants to increase the economic impact from winter 
tourism, amenities and event venues that meet the expectation of the 
international visitor have to be constructed on Mt. Hood.
    Portland, Hood River, and Government Camp already have much of the 
infrastructure needed to host the Olympics or other large winter 
competitive events. Mt. Hood can provide the venues for the alpine and 
nordic events. But consider what is still needed:

        1. A village or villages constructed on Mt. Hood to be able to 
        host a delegation of 6,000 athletes and officials.

        2. Winter sport competition venues constructed at Mt. Hood and 
        in Portland which will serve as venues during the large events, 
        but also be used to train athletes on Mt. Hood year-round into 
        the future.

        3. Transportation improvements between Portland and Mt. Hood 
        and between Government Camp and the major ski areas.

    The reality is that Oregon has not been able to capitalize on 
winter tourism at the level of California, Idaho, Utah, Colorado, or 
British Columbia because of Forest Service reluctance to approve the 
necessary amenities and facilities on Federal lands at the base of the 
existing winter sports areas.
    Even if Oregon does not pursue an Olympic bid in the future, we can 
best take advantage of the displaced visitors who would have otherwise 
gone to Whistler by developing the amenities on Mt. Hood between now 
and 2010 that are necessary to influence their vacation destination 
choice. We can use the exposure that the Olympics will bring to the 
northwest to expose the international tourist to the new facilities, if 
constructed by 2010.
    I leave you with this--until Forest Service policy and strategies 
change to allow for the construction and development of world class 
facilities and venues needed to present major winter events and meet 
the expectations of the winter tourist, we will never capitalize on 
winter international tourism. Even though we have spectacular mountains 
and ski slopes, we don't have the amenities and facilities that other 
winter destinations enjoy. Oregon has a unique combination of a vibrant 
city in close proximity to a world class winter recreation area, but it 
is incomplete from an international visitor's point of view due to the 
lack of pedestrian villages at the base of the ski areas. One only 
needs to visit Whistler or Deer Valley to see what Oregon is missing.
    Thank you for the opportunity to provide you with this input.

    Senator Smith. Dave, are we missing it because of Forest 
Service regulations or resistance to improvements?
    Mr. Riley. Yes. And the reason it's different in Oregon and 
Washington is that, unlike in Idaho, Utah, California, the base 
of the ski areas in Oregon and Washington are Federally owned. 
There is no private land at the base of the ski areas.
    And so we're dependent upon the Forest Service's policies 
and vision for those areas, and historically, or up until now, 
their vision has been to utilize these areas as day-use areas 
only, whereas the rest of the country have created the 
facilities that attract international tourism, because they 
have villages and amenities at the base, exactly what they have 
at Whistler.
    And you don't see that in Oregon and Washington, and it's 
because of the policy and strategy of the Forest Service.
    Senator Smith. Is that policy and strategy modified between 
Administrations at all?
    Mr. Riley. It's been very consistent between 
Administrations. It really hasn't changed. Mt. Hood Meadows is 
37 years old, and what is amazing is we have 11 chairlifts with 
22 acres of parking, but we can't get one acre for some 
overnight accommodations.
    I couldn't even get approval to put it on top of my parking 
lot. It's just not--there is a lack of vision, and there is a 
disconnect between what is appropriate and what the 
opportunities are.
    Senator Smith. I'm sad that they have their policies, but 
I'm wondering if you have that many visitors to Mt. Hood, and 
the Federal Forest Service was in a position to divide up 99-
year leases of land up there for such a thing, that policy 
change could be effected. Do you think that that would draw the 
capital necessary to turn it into a world class kind of place 
as opposed to just a day trip?
    Mr. Riley. Absolutely. We can raise the money. We don't 
need the Federal money. We just need the policy lifted----
    Senator Smith. What kind of lease or ownership opportunity 
do you have to have to attract the money?
    Mr. Riley. That's a very good question. There are two ways 
to do it: One is through land exchanges where the land becomes 
private. The other is through long-term leasing. It would have 
to be what you described in order to be able to attract the 
capital, because an investor is not going to give into a 
hundred million dollar investment that doesn't have the 
certainty that they will have the property for at least 99 
years.
    But in Hawaii or in Mexico, that's exactly how it's done, 
is that the government owns the underlying land, and they get 
99-year leases.
    Senator Smith. Very good. You suggested some good ideas.
    Mr. Riley. Thank you.
    Senator Smith. Thank you very much, Dave.
    We'll next hear from Mr. Drew Mahalic, who is the Chief 
Executive Officer of the Oregon Sports Authority.
    And, Drew, we appreciate very much your time and your work.

    STATEMENT OF DREW MAHALIC, CEO, OREGON SPORTS AUTHORITY

    Mr. Mahalic. Thank you, Senator Smith, for this opportunity 
to testify.
    For the record, I'm the CEO of the Oregon Sports Authority. 
We're a private nonprofit organization with leaders 
representing the public and private side of the state of 
Oregon. Our mission is really to focus on economic development 
through sports tourism.
    In the 10 years of serving as Oregon's sports marketing 
arm, we've secured two Women's World Cup events, the U.S. 
Figure Skating Championships, a World Sled Dog Championship, 
baseball championships. We've got a new Action Sports Tour 
coming this month, a new Lance Armstrong Ride coming next 
month, and dozens of other events that all have had more than a 
$100 million impact on our state.
    In December 2002, we obviously knew about Vancouver's 
interest in the Winter Olympics, and we provided an official 
letter of support to them that was incorporated into their bid 
package.
    The letter simply stated that we will do whatever we could 
to support their Olympic and Paralympic Winter Games and do 
whatever it took to realize the enormous tourism potential, 
given that we're 300 miles south of Vancouver.
    We obviously recognize that there's tremendous economic 
potential available to the entire Northwest region of the 
United States from these Games. Our plan is to really start 
with a State of Oregon plan and a Cascadia plan to do what we 
can to capture a part of the multi-billion dollar projected 
economic impact that these Games will bring to Vancouver, 
British Columbia.
    One of the main targets obviously will be the athletes. 
There are about 2,550 or more athletes that will be competing 
in these Games, and they'll want to acclimate themselves to the 
Pacific time zone or the culture, the terrain, the weather, and 
we feel that Oregon and Cascadia is really the perfect place 
for them to come.
    Particularly, as we've just heard on the mountain slopes, 
there are 15 Olympic sports. Eleven of those are actually snow 
sports. Some of those we probably can't handle, like the 
bobsled or the luge. Ski jumping may be difficult. But there 
are seven strong snow sports that we can accommodate that would 
be perfect training sites here in Oregon and in the Northwest 
for these events.
    We also have a number of ice rinks. There are four ice rink 
events in the Winter Olympics: hockey, figure skating, curling, 
and speed skating. We certainly will work with all the skating 
rinks in the area and southwest Washington, which also can 
become great training sites for the teams that need to train 
perhaps outside the media chaos that might be going on in 
Vancouver, and the teams I think could be very successful in 
utilizing these resources.
    We'll additionally develop partnerships with all the health 
club facilities. Oregon, as you know, is probably the best 
place for aerobic exercise. It's where all the world class 
runners come to train.
    And to the extent that that's part of training for these 
athletes, we can certainly help facilitate their training here 
through running courses and facilitating relationships with 
health clubs, which we can make that happen.
    Just within the last year, the Oregon Sports Authority's 
former Chair, Randy Miller, and our consul here, Jim 
Baumgardner, traveled to Seattle specifically to meet with the 
Vancouver Olympic Organization to forge a strong business 
relationship, whereby each agreed in principle to cooperate 
with each other for these Olympics.
    And just really fueled in part by this Senate hearing 
today, there are plans for the city of Portland to create an 
Oregon delegation to go up to Vancouver, meet with the mayor of 
Vancouver, to further discuss how we can leverage each other's 
assets in a collaborative effort for these Winter Olympics.
    We'll additionally build as many partnerships as we can. I 
believe it was you, Senator, that mentioned that we've got 
airlines that are flying directly in from Mexico, Europe, and 
Asia right into Portland, and we can certainly encourage 
tourism as they land here.
    On the Board of the Oregon Sports Authority, we have solid 
representation from Nike, Columbia Sportswear, Adidas, and now 
I guess Adidas and Reebok, from the merger. And it's not 
insignificant that Oregon has this as its sports legacy--they 
can call it home to the three largest sports apparel companies 
in the world.
    And to the extent that these companies have athletes and 
people interested in their sports, those are connections we 
need to exploit for people that come in here. They can 
certainly encourage athletes and teams that have been sponsored 
to train in Oregon, and it's another avenue for us to leverage 
as well.
    Senator Smith. Are you aware of whether Nike and Columbia, 
and I guess Adidas, are they in any way preparing for this 
2010?
    Mr. Mahalic. Knowing the way they operate, they definitely 
are. But I would suspect that they're not thinking yet in the 
direction that we are, obviously. Their agenda is not tourism, 
but that is something that we can certainly introduce to them. 
And given that they're all interested in our particular agenda, 
we don't think it will be a hard sell to get them to include 
that as part of what they want.
    You know, we've heard what the projected economic impact is 
going to be from the Vancouver Olympics, and if we can just 
capture a small percentage of that, you know, I think you're 
talking something in the range of $50-$100 million in economic 
impact for the Northwest, which is huge.
    The other thing is that this may be--in terms of Olympic 
history, this may be our one shot for a long, long time at a 
Winter Olympics in this area. You know, we were fortunate to 
have it fairly close in Salt Lake City and in Vancouver, but 
the bids are becoming so competitive in the future, with other 
countries and other continents being more competitive, that we 
may not see another Winter Olympics close to us for decades to 
come.
    And so it's really our time to seize this--and we certainly 
have enough time to do it--but the clock is ticking, and 
realistically, after the Olympics in Torino in 2006, this one 
will jump on us in a hurry.
    We'll do what we can to realize this vision. You know, 
obviously we're a small nonprofit. Ideally, we'd like to look 
to partners, perhaps at this table and with the Federal 
Government, to see whether there's a way to help us, perhaps 
fund a specific staff person or to get a staff person on loan 
that could look and help organize this Cascadia effort to make 
sure that we really do capture all the potential that's out 
there, and I think the potential is huge.
    You know, the Olympic motto is ``Citius, Altius, Fortius,'' 
which means ``Swifter, Higher, Stronger.'' The State of 
Oregon's motto is ``She flies with her own wings.'' So there's 
definitely a synergy within the ideals of the Olympics and the 
state of Oregon. So we hope to work with you in developing this 
synergy and capture that lucrative share of Olympic tourism.
    Thanks for hosting this Senate Committee meeting. We think 
it's inspired us, and we look forward to helping in every way 
that we can.
    [The prepared statement of Mr. Mahalic follows:]

    Prepared Statement of Drew Mahalic, CEO, Oregon Sports Authority

    Thank you for the opportunity to testify at this hearing on the 
economic impact of the 2010 Vancouver, Canada, Winter Olympics on 
Oregon and the Pacific Northwest.
    I serve as the CEO of the Oregon Sports Authority, a private, 
nonprofit organization with a Board of Directors that represent both 
public and corporate leaders of the state of Oregon. Our mission is to 
promote economic development throughout Oregon via the cultivation of 
sports events that encourage sports tourism.
    Our organization coordinates efforts to bid for, promote, and 
manage world-class sports events that make sense for the state of 
Oregon. During our ten years serving as Oregon's sports marketing arm, 
we've secured two Women's World Cup soccer events, the U.S. Figure 
Skating Championships, a World Sled Dog Championship, World Cup 
Qualifiers, Baseball Championships, a new Action Sports Tour, a new 
Lance Armstrong Ride, and dozens of other events which have had more 
than a $100 million impact on the Oregon economy.
    In December 2002, the Oregon Sports Authority provided an official 
letter of support to the Vancouver 2010 Bid Corporation. Our letter was 
incorporated into Vancouver's Olympic bid package. The letter stated 
that the Oregon Sports Authority would use our full resources to 
promote the Vancouver Olympic and Paralympic Winter Games and to help 
the Games realize the enormous tourism potential to Oregon given that 
our state is merely 300 miles from Vancouver, British Columbia.
    The Vancouver Olympics and Paralympics will host 15 different 
winter sports for more than 2,500 athletes from more than one hundred 
nations. There will be 9,600 international journalists coming to the 
Northwest to cover the Games, 6,000 corporate sponsors, 3,300 Olympic 
officials, 650 judges, and 250,000 visitors attending these Olympics. 
Relying on reports from the Salt Lake City Olympics, the economic 
output of these Games is projected to be in the area of $5 billion.
    The Oregon Sports Authority recognizes the economic potential 
available to the entire Northwest region of the United States from the 
Vancouver Olympics and Paralympics. Our plan is to develop both a state 
of Oregon plan and to work with our border states to develop a Cascadia 
plan for the Northwest designed to capture a part of the multi-billion 
dollar economic impact these Olympic Games will bring to Vancouver, 
British Columbia.
    One of the main targets of our Olympic plan are the 2,550 Olympians 
and Paralympians who will be highly interested in acclimating 
themselves to the Pacific time zone of our region, our altitude and 
weather, and the Northwest terrain and culture. For the snow sports, 
Oregon and Cascadia have a brilliant selection of mountain slopes that 
can serve as magnificent training sites for at least seven of the 
fifteen Olympic sports.
    Oregon and southwest Washington also offer a strong selection of 
ice rink venues to accommodate training needs for figure skaters, speed 
skaters, hockey teams, and curling teams. The plan of the Oregon Sports 
Authority is to utilize its many relationships with the national 
governing bodies of specific Olympic and Paralympic sports so that they 
are aware of and encouraged to have their teams train in our ice rink 
facilities.
    We'll additionally develop partnerships with Oregon's multiple 
health club facilities and sports medicine clinics that will present 
Oregon as an attractive place for additional athletic training. For 
those athletes interested in cardiovascular training for endurance in 
their sports, we will ensure that our magnificent running courses all 
over Oregon are well advertised to these elite athletes.
    Within the last year, the Oregon Sports Authority's former Chair, 
Randolph Miller, traveled to Seattle specifically to meet with the 
Vancouver Olympic Organization to forge a business relationship whereby 
each entity agreed in principle to cooperate with each other for mutual 
benefit. And within the last month, fueled in part by this Senate 
hearing, the city of Portland and the Oregon Sports Authority have met 
to develop a plan to send an Oregon delegation to meet with the Mayor 
of Vancouver, B.C. to further discuss the economic collaborative 
opportunities offered to each city by the Vancouver Olympics.
    The Oregon Sports Authority will additionally be building 
partnerships among airlines, Amtrak, bus coaches, and travel agencies 
to ensure that Oregon is marketed as a convenient tourism destination 
prior to and after the Vancouver Olympics. There are direct flights 
into Portland from Europe and Asia that will make for an attractive and 
convenient stop in Oregon for the Olympic tourists.
    The Oregon Sports Authority will also utilize the power of its 
Board of Directors who are corporate leaders for the world headquarters 
of Nike, Inc., the world headquarters of Columbia Sportswear, and the 
U.S. headquarters of Adidas. All three of these giant apparel companies 
have a vested interest in the success of the Olympics and Olympic 
athletes. Strategic plans will be explored for athletes, coaches, 
judges, and tourists who have an affiliation with any of these 
corporations to visit Oregon as part of their Olympic visit.
    The Oregon Sports Authority will be working collaboratively with 
Travel Oregon, the Portland Oregon Visitors Association and visitors 
bureaus from other regions and southwest Washington, city governments, 
and our state government to make sure that all economic opportunities 
made possible by the Vancouver Olympics are duly recognized and seized 
for the Northwest's economic advantage. We'll additionally work with 
our state to ensure that its Brand Oregon agenda includes marketing 
Oregon as a premier sports destination.
    Given the economic potential offered by the Vancouver Olympics, 
there is every reason to believe that Oregon and the Northwest have the 
potential to capture up to 1 percent of the $5 billion economic output 
from the Olympic Games which could equate to $50 million for the 
Northwest economy. The Oregon Sports Authority will strive to realize 
this vision with the limited financial and human resources we have at 
our disposal. We hope to forge a partnership with the Federal 
Government and all the above partners to fund a dedicated two-year 
position commencing in 2006 that would focus solely on developing the 
network and partnerships required to fully leverage the economic 
potential that is available from the 2010 Vancouver, B.C. Olympic and 
Paralympic Games.
    The Olympic Motto, ``Citius, Altius, Fortius'' which means 
``Swifter, Higher, Stronger'' is very much compatible with the state of 
Oregon's motto, ``She flies with her own wings.'' There is definitely a 
synergy within the ideals of the Olympics and the state of Oregon. We 
hope to work with you in developing this synergy to capture a lucrative 
share of Olympic tourism.
    We thank and applaud your Senate Committee for recognizing this 
economic opportunity for the Northwest. Thank you for giving us the 
chance to participate in this hearing. I'll be delighted to answer any 
questions that you may have.

    Senator Smith. Do you think, though, that Oregon really is 
not prepared in terms of infrastructure or the size of our 
economy in this state to host an Olympics any time soon?
    Mr. Mahalic. Well, I know that there have been efforts in 
the past--in fact, there's one person in the audience that 
actually led a major effort about 25 years ago for Oregon to do 
it.
    I would say, Senator, frankly, that we probably could 
finesse hosting the Olympics here, but in terms of the 
financial demands by the Olympic Committee, I just don't see 
the Oregon public government stepping up financially----
    Senator Smith. To make those investments?
    Mr. Mahalic.--yes to make those kinds of guarantees that 
it's calling for. You're talking something far beyond anything 
our state has ever considered.
    Senator Smith. Jane, can you refresh my recollection? Who 
were your competitor cities or nations for the 2010 Olympics?
    Ms. Burnes. Well, when we got down to the last ballot, it 
was Korea and Salzburg, Austria.
    Senator Smith. Salzburg?
    Ms. Burnes. Yes, and Korea was only a couple of votes 
behind us.
    Senator Smith. Was Denver, Colorado, pushing for--or you're 
not aware of it either?
    Ms. Burnes. I'm not aware of it.
    Mr. Mahalic. I'm not aware of any.
    Mr. Wilgus. Reno is looking seriously at it.
    Senator Smith. Reno?
    Mr. Wilgus. And so is Idaho.
    Senator Smith. Well, there's some great skiing in Idaho. I 
guess my only thought is, if Nevada can pull it off, Oregon can 
pull it off, in terms of size of economy and attractiveness and 
facilities and all of that.
    But, anyway, I'm not saying that it's something----
    Mr. Mahalic. Oh, it certainly would be something that would 
be great for Oregon--that's the absolute ideal in terms of 
securing a sports event. There is nothing greater than securing 
the Olympics in this business. It's the number one goal.
    Certainly Oregon has the majesty in terms of its topography 
and facilities, but we would have to have a metamorphosis of 
change in the government to be able to step up financially for 
what that requires.
    Senator Smith. Yes.
    Mr. Riley. Senator, I think it's important to note, though, 
that there are many other steps you can take that can lead to 
that which could be beneficial economically. There are smaller 
games. There are World Cup events. There are a number of 
national events that occur every year over and over again in 
Park City and Deer Valley and Sun Valley. All the resorts that 
are capitalizing on those events have this stream of income 
that is literally annual.
    The Olympics is great. It's a one-time shot. It provides 
these facilities an infrastructure that are incomparable.
    But absent going after the Olympics, there are still steps 
that we can take to improve our economy to leverage a winter 
recreation.
    Mr. Mahalic. And just to add on, there is no reason why 
Oregon can't become known in the future as one of the best 
Olympic training sites for Winter Olympics. As we've heard, 
we've got the mountains. There are 11, you know, snow sports. 
Certainly there is no better place to train than in Oregon.
    So we may not be actually getting the Olympics, but to 
become home for training sites would really set us apart as 
well.
    Senator Smith. Well, typically the preparation for 2010 in 
British Columbia--because skiing in Oregon or the Pacific 
Northwest is a different sport than skiing in the Rocky 
Mountains. It's a whole set of different conditions of snow--I 
say this as a fairly accomplished skier myself. I've skied in 
both places.
    Jane, was this an economic undertaking that frankly puts a 
lot of short-term strain on Vancouver, or does Canada as an 
entire nation feel vested in it and contributing to it?
    Ms. Burnes. Well, the two major government partners, in 
terms of financial contribution, are the British Columbia 
Government and the Federal Government, and they both committed 
during the Bid Phase to something around $250 million each 
toward the infrastructure, not the operating.
    The British Columbia Government had to give the IOC a 
guarantee that they would cover any operating costs that 
weren't picked up by the sponsors or by the organizing 
committees not having the ability to raise the funds.
    It was something that was started by a previous government. 
But when this government got elected, they looked at it really 
hard from an economic standpoint, because they came in with a 
mandate to sharpen their pencils on the books, and they felt 
that they wanted to kind of get a better hold on the financial 
picture there.
    So that was when I joined this effort, and the first thing 
we did was look at the economic impact and do some really 
formal studies to prove that an investment of that nature was 
going to benefit all of British Columbia and all of Canada.
    So it's the British Columbia government that is playing a 
major role in backing this up.
    Senator Smith. Well, I assume the whole project enjoys 
wide, popular support, locally and throughout Canada?
    Ms. Burnes. It does now, but it had its rocky moments. And 
just to go back to the letters of support that we got from 
Pacific Northwest states, they were well-timed because we 
actually had a referendum in the city of Vancouver, and we had 
people in Whistler that were concerned that sustainability 
values that they held so closely were going to be overlooked, 
and they didn't rush to get the Olympics.
    Just to speak to what some of my colleagues here have been 
saying--and you sound like you sort have got the Olympic fever 
a bit yourself--about why can't we host it here in Oregon.
    If you want to do that, the best thing to do is to start 
hosting--like become a training center and to start hosting 
those World Cups. Those are the sorts of things that 
demonstrate to the IOC that you're serious and that you've got 
that ability, so those are the kinds of things that we did as a 
buildup. We held the World Figure Skating competition, for 
instance, a couple of years before we were awarded the bid.
    So those sorts of things not only build your own capacity 
here, but they put you in a position that if and when you are 
ready to bid, that you've got that history that shows you're 
serious.
    Senator Smith. Well, it wouldn't be a democracy if there 
weren't some rocky moments.
    Anyway, we're very, very privileged to have Carl Wilgus 
with us today. He is with the Idaho Tourism Division, I believe 
the Director?

    STATEMENT OF CARL WILGUS, STATE TOURISM DIRECTOR, IDAHO 
                DIVISION OF TOURISM DEVELOPMENT

    Mr. Wilgus. Correct.
    Senator Smith. And I think Idaho perhaps offers us the very 
best model of what can happen to Oregon because of what Idaho 
enjoyed from the Salt Lake Olympics.
    So, Carl, we thank you for your concern, your interests, 
and your willingness to come here and share with us the Idaho 
experience.
    Mr. Wilgus. Thank you. It's a pleasure for me to be here 
today to share with you the accomplishments of the state of 
Idaho as a result of implementing its 2002 Strategic Plan.
    I feel compelled, though, on the outset to issue the 
following disclaimer: ``I am not an Olympic expert.'' I have 
been fortunate enough, though, to have attended several Winter 
Games and have been given some time and resources to implement 
a comprehensive strategy to take advantage of the 2002 Games in 
Salt Lake City.
    By all account, Idaho's efforts were successful. This was 
made possible by three very important actions: First, the 
creation of a ten-point Strategic Plan that helped lead our 
direction.
    Second was the formation, via the Governor's Executive 
Order, of a statewide 2002 commission to oversee all levels of 
the state involvement with the Salt Lake Games.
    And, third, a development of a revenue stream that through 
the passage of a specialty skier license plate bill in 1998 
provided a half a million dollars of funds to support the 
implementation of that plan.
    Now, before I talk about the specifics of the plan, I need 
to make one more acknowledgment. While a reported $100 million 
in economic development was realized by the State of Idaho, it 
really was the social and cultural benefits that were gained by 
being involved in the Olympics that created an even greater 
return on investments for Idaho.
    We had many accomplishments, most of which or all of which 
are detailed in the report here that I have for you as well.
    But allow me to touch on a few of the most noteworthy, and 
some of my colleagues referred to them earlier. Nearly 1 in 10 
athletes of the 3,500 athletes, 350 of the athletes who 
participated in the Salt Lake City Games competed or trained in 
the state of Idaho before or during the Games themselves.
    Early marketing efforts were started by identifying and 
soliciting national Olympic teams to consider using Idaho as a 
training site and acclimation location. A comprehensive 
directory was created by the state that showed people where 
they could train and what they could do. We compiled the 
information, published it, and distributed it to national 
teams.
    The Sun Valley area in particular became a true mecca for 
such training, which included the likes of the Ukrainian 
Biathlon and Nordic Men's and Women's Team, the Norwegian 
Nordic Men's and Women's Team, the Swedish Biathlon and Nordic 
Women's Team, the Italian Alpine Men and Women's Team, the 
United States Alpine and Snowboard Men and Women's Team, the 
Liechtenstein Nordic Men's Team, and the Slovakian Men's Hockey 
Team all spent time before and during the games in the Sun 
Valley area.
    More than 200,000 Idahoans were directly exposed to the 
Olympic movement through the more than 20 events and 
exhibitions staged in and around the state. This allowed many 
families and youth to experience the drama of international 
competition.
    Olympic fever hit a high pitch just weeks before the 
opening ceremonies with the nine community stops of the Olympic 
Torch and the recorded record crowd of nearly 6,000 people who 
attended the Bank of America Center in Boise and witnessed the 
historic meeting of the USA/China Women's Hockey Teams.
    Many Idaho businesses, both large and small, took advantage 
of procurement opportunities, pumping tens of millions of 
dollars into Idaho's economy.
    A few companies, such as Washington Group International, 
which is responsible for most of the freeway construction in 
Salt Lake City, is housed in Boise, Idaho.
    Double A Company, which provided portable toilets to the 
Olympics, is housed in Boise, Idaho.
    Fleetwood Home Manufacturing out of Nampa, Idaho, provided 
trailers which were offices used at the Soldier Hollow.
    Idaho Sewing for Sports, a Grangeville company, provided 
protected padding on lift towers and finish areas.
    Jytte Mau, a specialty knit manufacturer in the Sun Valley 
area, 25 percent of her gross revenues in 2002 came as a result 
of Olympic contracts.
    And even Cascade Raft Company provided drivers and vans to 
move VIPs and officials from location to location. That doesn't 
account for even the hundreds of Idahoans who volunteered and 
worked in different events and different areas during the Games 
themselves.
    Additional revenue was generated by the Salt Lake bound 
visitors who stopped on the way to or from the Games to enjoy 
Idaho and the thousands of Utah residents we were able to 
entice by our advertising campaigns to escape the crowds of the 
Games and come to Idaho.
    All of our southern Idaho ski areas reported increased 
numbers of vehicles in their parking lots with Utah plates 
during 2002.
    Even the University of Utah basketball and track and field 
teams set up temporary training camps in Pocatello during the 
Games because they were displaced from their university 
setting.
    The establishment of a Western States Discovery Center, a 
three-state--Idaho, Nevada, Utah--visitor center on Main Street 
across from the Anheuser Busch Beer Gardens and next to the 
Canadian Roots House, proved to be an excellent way to 
communicate with Olympic attendees.
    Eleven computers provided on-line access to the internet so 
that visitors to the Center could e-mail postcards to friends 
and relatives at home and learn more about Idaho.
    More than 250,000 brochures were distributed, and nearly 
8,000 electronic postcards were sent from the Center during the 
Games. This Center not only distributed tourism information, 
but supplied substantial amounts of material regarding business 
expansion and relocation opportunities to Idaho.
    As I mentioned earlier, our success was not a matter of 
luck or happenstance. We created a plan, we stuck to the plan, 
we dedicated resources, both in staff and dollars, to implement 
the plan.
    When I look back on what we were able to accomplish and 
have asked to provide suggestions or lessons learned, I would 
say garner the support of the host state or province, promote 
the social and cultural aspects of your efforts, have some kind 
of funding source. Try to develop some kind of an Olympic pin. 
As we discussed, the currency of the Games is not a handshake 
and a business card but an Olympic pin.
    Senator Smith. This is a potato?
    Mr. Wilgus. This is a Spuddy Buddy, yes, a representative 
of certain parts of our state.
    Senator Smith. I understand. I ate a lot of them.
    Mr. Wilgus. Yes.
    To develop your plan early, find partners, and importantly, 
don't just plan for the Games, but think beyond a year or two 
in your planning process.
    I really believe Idaho's success can be replicated in 2010, 
and we in Idaho plan to do so. However, one very important 
distinction does exist: Vancouver is in the Province of British 
Columbia and in the country of Canada. This is first and 
foremost a Canadian Olympics, and that will create a different 
set of circumstances to be aware of.
    Thank you for your time, and I'd be happy to answer any 
questions.
    Senator Smith. Meaning the visa issue?
    Mr. Wilgus. Visa and border crossing itself. In the 
original bid that was put together by Vancouver, because it was 
the Vancouver Olympic Games, border issues were not a primary 
consideration. It was airport access and movement of people 
around Vancouver and up to Whistler.
    And I've heard some things that I think give me the feeling 
that there are currently some gross underestimations in terms 
of the amount of southbound traffic--from the south, it's going 
to be going north across that border.
    When you look at--Vancouver does not have low-cost air 
carriers like Southwest Airlines, like America West, or like 
JetBlue providing services. So much, I think, of the domestic 
travel will be coming in through Seattle and Portland and then 
transporting up to Vancouver for cost consideration.
    We also know that when you have an Olympics, the airlines 
that serve that city inflate their prices. I mean, that's their 
opportunity to make revenue.
    So smart, intelligent Olympic visitors will be looking at 
alternate airports, like Seattle and Portland, and then the 
problem is how do I get to Vancouver, to get there quickly and 
easily.
    And I think that we need to--we, the U.S. Government--needs 
to look a little bit more closely and work a little closer in 
partnership with the Canadian government. That's the whole 
issue of getting in, which will obviously be a Canadian Customs 
issue, but they're also going to come back, which will be a 
U.S. Customs issue.
    Senator Smith. So if Idaho's experience with Utah license 
plates holds true, we may see a lot of the British Columbia 
plates in Oregon?
    Mr. Wilgus. There's every reason to believe so. I would 
submit to you, though, Senator, that we probably won't be 
taking lots of money to Vancouver and advertising for 
Vancouverites to leave Vancouver, but what we'll probably be 
doing is going to Seattle and Portland, because you produce a 
lot of skiers in Whistler and Blackcomb, and we'll be 
suggesting that Idaho may be an option for them.
    Senator Smith. Yes, that's the American and Canadian way.
    Mr. Wilgus. Well, we would like to be a great cooperator, 
but we would also like to be a brilliant marketer at the same 
time.
    Senator Smith. That's called free enterprise.
    Mr. Wilgus. Absolutely.
    Senator Smith. We applaud it and we welcome it.
    [The prepared statement of Mr. Wilgus follows:]

   Prepared Statement of Carl Wilgus, State Tourism Director, Idaho 
                    Division of Tourism Development

    On behalf of our 2002 Executive Committee, we're pleased to provide 
you with this report of our activities in connection with the staging 
of the 2002 Winter Olympic Games. By almost all measures Idaho's 
efforts were successful. A ten-point strategy was developed to provide 
a blueprint to gain economically, socially, and culturally from the 
2002 Winter Games being held by our Southern neighbors.
    We had many accomplishments, which are detailed in the report, but 
allow me to touch on a few of the most noteworthy:

    1. Nearly 1 in 10 of the athletes who competed in the Winter Games 
trained and/or competed in Idaho--early marketing efforts were started 
to identify and solicit national Olympic teams to Idaho. A 
comprehensive directory of Training Sites was compiled, published, and 
distributed to national teams. The Directory identified critical 
contact information, highlighting facilities in Idaho that offered an 
ideal setting for training. The Sun Valley area became a true Mecca for 
such training, which included the likes of:

        Ukrainian Biathlon & Nordic (M&W)
        Norwegian Nordic (M&W)
        Swedish Biathlon & Nordic (W)
        Italian Alpine (M&W)
        United States Alpine & Snowboard (M&W)
        Liechtenstein Nordic
        Slovakian Hockey (M)

    2. Over 200,000 Idahoans were directly exposed to the Olympic 
movement through events and exhibitions--exposing the highest ideals of 
the Olympics to Idaho's citizens and youth through the staging of pre- 
and post-Olympic events proved to be one of the most fulfilling things 
we could have done. Over 20 events were staged in Idaho exposing many 
families and youth to the drama of international competition. Olympic 
fever hit a high point in Boise just weeks before the opening 
ceremonies with the 9 community stops of the Olympic Torch and record 
crowd of nearly 5,500 at the Bank of America Centre to witness the 
historic meeting of Team USA/China women's hockey teams.

    3. Idaho received an economic impact of over $100 million in the 
two years leading up to the Games and the year following--team 
training, the special exhibitions, along with visits by torch relay to 
Idaho, contributed millions of dollars to the Idaho economy. Several 
Idaho businesses large and small took advantage of procurement 
opportunities and pumped tens of millions of dollars into the Idaho 
economy.
    Such companies included:

        Washington Groups--Highway Construction
        A-Company--Portable Toilets
        Fleetwood Homes--Trailers
        Idaho Sowing for Sports Inc.--Protective Padding
        Jytte Mau--Specialty Knit hats
        Cascade Raft Company--Drivers and Vans

    Add in the revenue generated by Salt Lake City bound visitors who 
stopped on the way to or from the Games to enjoy Idaho, and the 
thousands of Utah residents who were enticed by our advertising 
campaigns to escape the crowds of Games and come to Idaho. All our 
Southern Idaho ski resorts reported increased numbers of vehicles in 
their parking lots with Utah plates. The University of Utah's 
basketball and track and field teams set up temporary training camps in 
Pocatello during the Games because they were displaced from the 
University.

    4. Boise was permanently awarded the Olympic cauldron that carried 
the Olympic flame across the country, in recognition of the 
``enthusiasm, spirit, and participation'' it exhibited during the 
National Torch Relay--the torch relay began in Atlanta covered 13,500 
miles in a span of 65 days. Some 11,500 torchbearers carried the 
Olympic flame. When all was said and done of the more than 100 
communities visited Boise was selected by the Salt Lake Olympic 
Committee as the outstanding torch relay community and permanently 
awarded the Olympic Torch cauldron. Just for your information, the 
cauldron is on display at World Sports Humanitarian Hall of Fame on the 
campus of Boise State University.

    5. Idaho's travel and tourism was significantly helped in the wake 
of 9/11, largely as a result of the efforts connected with the Winter 
Olympics--the establishment of the Western States Discovery Center, a 
three-state (Idaho, Utah, and Nevada) visitor center on Main Street, 
proved to be an excellent way to communicate with more than 65,000 
Olympic attendees. Eleven computers provided online access to the 
Internet so visitors to the Center could send e-mail postcards to their 
friends and family at home. Over 7,500 postcards were sent from the 
booth during the Games. We also conducted three special ``Idaho Days'' 
featuring Idaho icons like Spuddy Buddy, the Junior Jammers, and the 
Sho-ban Tribal Dancers.

    We are pleased that so many Idaho families and school children were 
personally touched by the spirit of the Olympics. The efforts of the 
many businesses, volunteers, and State agencies that helped our State 
benefit from this significant event is greatly appreciated by the 
Committee and the many families throughout the State that were touched 
by the Olympic movement.

    I think I have only one other question, and that is for 
you, Jane. Is there something that Oregon could do that we're 
not doing to be helpful to you? We want your Games to succeed. 
Are there ways that we can coordinate with you that would be 
helpful to you and collaterally beneficial to us?
    Ms. Burnes. I think that there's been every demonstration 
from every level from people in Oregon. Oregon has always been 
cooperative.
    And I think just continuing to keep in touch and share 
those lessons that we learned so much from Idaho that Carl put 
together when we were putting together our own plans for 
economic developmental opportunities, I think--yes, just 
continuing to share the information, because there's--the plans 
that we have put into place and the opportunity that we had for 
leverage from becoming part of this Olympic family are ones 
that you can take along and start right now.
    Carl and I were talking earlier before this began about how 
important it is for people like yourself involved in the 
industry to go to those games, if you get a chance.
    We're going to be going to the Torino Games, and we're not 
just going to learn the lessons of how to put them on, but I'm 
responsible for putting together a--actually, we're building a 
log structure that has been prebuilt in British Columbia, and 
this company made its name on an international field by winning 
a competition to put a lodge in Snow Basin Resort in Utah.
    So they're now being able to win the next competition with 
putting a lodge in Torino where we will be profiling our 
country and our region, and that's the kind of thing that you 
can do--just as picking up Carl's 2002 ten-point plan, picking 
up some of the things that we're doing and coming along, and we 
have so much to learn and share with you.
    So thank you for the offer, and I welcome it.
    Senator Smith. Well, you know these players, and if there 
are things that we can do in Oregon to be helpful, we would 
like to do so.
    And if there's anything that the Federal Government in 
Washington D.C. can do to be helpful, please know that as one 
of its officials, I'm anxious to hear from you and to respond 
to concerns you have in ways that we can help facilitate the 
success that we hope comes your way and provides for the 
security and the efficiency that I think are really at the 
heart of this being a success.
    And I make that offer, and I'll share it with the 
Subcommittee. They can push the buttons--the right kind of 
buttons that good neighbors ought to be providing to one 
another.
    So to each of you, my heartfelt thanks for coming here, 
your interest in this, and helping me to focus Oregon and the 
Federal Government on this state, this region, and this 
opportunity to highlight one of the loveliest places on earth, 
which is the Pacific Northwest.
    And we conclude with that expression of thanks.
    We're adjourned.
    [Whereupon, at 11:15 a.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
